No. 20-6199

1Jn tlp? ~upr£m£ <rrourt of tqc 1Etnitcb ~tafcg
JACOB TOWNLEY HERNANDEZ, Petitioner,
V.

SUZANNE M. PEERY, WARDEN, Respondent.

CERTIFICATE OF SERVICE BY ELECTRONIC MAIL

I, Jill M. Thayer, Deputy Attorney General, a member of the Bar of this Court,
hereby certify that on January 20, 2021, the parties agreed to electronic service in
this case, and that on March 8, 2021, a copy of the BRIEF IN OPPOSITION in the
above-entitled case was electronically mailed to:
Marc J. Zilversmit
Attorney at Law
Email: marc@zdefender.com
I further certify that all parties required to be served have been served.

Wir J!V\ . ;;J,L, t.

JLM. THAYER, Deputy ~
General
Office of the Attorney General
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102-7004
Telephone: (415) 510-3868
Counsel for Respondent
SF2021400035
42581742.docx

